  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


  NONINSTITUTIONAL PROVIDERS IN
NORTH CAROLINA DID NOT RECONCILE
   INVOICE RECORDS WITH CREDIT
     BALANCES AND REPORT THE
ASSOCIATED MEDICAID OVERPAYMENTS
       TO THE STATE AGENCY



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                        November 2012
                                                        A-04-11-04016
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In North Carolina, the Department of Health and
Human Services (State agency) supervises the administration of the Medicaid program. Within
the State agency, the Division of Medical Assistance administers the Medicaid program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. Pursuant to 42 CFR § 433.10, the Federal Government pays its share
(Federal share) of State medical assistance expenditures according to a defined formula.

Credit balances may occur when a provider’s reimbursement for services that it provides exceeds
the allowable amount or when the reimbursement is for unallowable costs, resulting in an
overpayment. Credit balances also may occur when a provider receives payments from
Medicaid and another third-party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records, and, if the reconciliation
identifies a Medicaid overpayment, the provider should report the overpayment to the State. The
State must refund the Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A) and
42 CFR pt. 433, subpart F).

Effective March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for
Medicaid services to recover, or attempt to recover, the overpayment before making an adjustment to
refund the Federal share. Except for overpayments resulting from fraud, the State must make the
adjustment no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for
the quarter in which the 1-year period ends, regardless of whether the State recovers the
overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery.




                                                  i
In North Carolina, the State’s regulations do not require providers to refund Medicaid
overpayments within a specific period. However, section 7 of North Carolina’s Basic Medicaid
Billing Guide requires providers to submit a quarterly report showing all identified Medicaid
overpayments recorded as credit balances in the providers’ accounting systems.

This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. In North Carolina, the audit focused on two
general types of noninstitutional providers: multispecialty physician groups and multispecialty
physician and medical diagnostic clinics.

OBJECTIVES

Our objectives were to determine whether noninstitutional providers reconciled invoice records
with credit balances and reported the associated Medicaid overpayments to the State agency.

SUMMARY OF FINDINGS

Generally, the eight noninstitutional providers that we sampled did not reconcile invoice records
with credit balances and report the associated Medicaid overpayments to the State agency. Of
the 185 invoice records with both Medicaid payments and credit balances in our sample, 112
contained Medicaid overpayments, but 73 did not. The Medicaid overpayments associated with
these 112 invoice records totaled $10,097 ($7,098 Federal share). Based on these results, we
estimated that the State agency could realize an additional Statewide recovery of $1,258,900
($902,461 Federal share) from our audit period and obtain future savings if it enhanced its efforts
to recover overpayments in provider accounts.

The providers did not identify and report Medicaid overpayments because the State agency did
not require providers to exercise reasonable diligence in reconciling invoice records with credit
balances to determine whether overpayments existed. The reconciliation process was at the
discretion of the providers, and some providers did not reconcile invoice records for more than
6 years. Some noninstitutional providers stated that they were unaware of the State agency’s
requirement for the quarterly reporting of all identified Medicaid overpayments recorded as
credit balances in the providers’ accounting systems.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $10,097 ($7,098 Federal share) to the Federal Government for overpayments paid
       to the selected noninstitutional providers and

   •   enhance its efforts to recover additional overpayments estimated at $1,258,900 ($902,461
       Federal share) from our audit period and realize future savings by requiring providers to
       exercise reasonable diligence in reconciling invoice records with credit balances and
       reporting the associated Medicaid overpayments.




                                                ii
STATE AGENCY COMMENTS

The State agency concurred with our findings and recommendations and summarized the
corrective actions that it is planning. The State agency’s comments are included in their entirety
as Appendix C.




                                                iii
                                                   TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            Federal and State Requirements Related to Medicaid Overpayments ...............1
            Selected Noninstitutional Providers ...................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................3
            Objectives ..........................................................................................................3
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          INVOICE RECORDS WITH UNRESOLVED CREDIT BALANCES .................5

          MEDICAID OVERPAYMENTS NOT REPORTED .............................................5

          INEFFECTIVE POLICIES AND PROCEDURES .................................................6

          MEDICAID OVERPAYMENTS AND
           ESTIMATED PROGRAM RECOVERIES .........................................................7

          RECOMMENDATIONS .........................................................................................7

          STATE AGENCY COMMENTS ............................................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                     iv
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In North Carolina, the Department of
Health and Human Services (State agency) supervises the administration of the Medicaid
program. Within the State agency, the Division of Medical Assistance administers the Medicaid
program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. Pursuant to 42 CFR § 433.10, the Federal Government reimburses
the State for its share (Federal share) of State medical assistance expenditures according to a
defined formula.

North Carolina’s Medicaid program defines a credit balance as an improper or excess payment
made to a provider as the result of recipient billing or claims processing errors. 1 Credit balances
may occur when a provider’s reimbursement for services it provides exceeds the allowable
amount or when the reimbursement is for unallowable costs, resulting in an overpayment. Credit
balances also may occur when a provider receives payments from Medicaid and another third-
party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records; and if the reconciliation
identifies a Medicaid overpayment, the provider should report the overpayment to the State. The
State must refund the Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A), and
42 CFR pt. 433, subpart F).

Federal and State Requirements Related to Medicaid Overpayments

Under 42 CFR § 433.312, States are responsible for recovering from providers any amounts paid in
excess of allowable Medicaid amounts and for refunding the Federal share to CMS. Effective
March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for Medicaid
services to recover, or attempt to recover, the overpayment before making an adjustment to refund
the Federal share. Except for overpayments resulting from fraud, States must make the adjustment


1
 North Carolina Department of Health and Human Services, Basic Medicaid Billing Guide, April 2010, pp. 7-9
(Billing Guide).


                                                      1
no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for the quarter
in which the 1-year period ends, regardless of whether the State recovers the overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered as discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery. 2

In North Carolina, the State agency’s regulations do not require providers to refund Medicaid
overpayments within a specific period. However, North Carolina’s Billing Guide requires
providers to submit a quarterly report showing all identified Medicaid overpayments recorded as
credit balances in the providers’ accounting systems as of the last day of each calendar quarter. 3

Selected Noninstitutional Providers

This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. In North Carolina, our audit focused on two
general types of noninstitutional providers: multispecialty physician groups and multispecialty
physician and medical diagnostic clinics. Table 1 identifies the primary classification for each of
the eight multispecialty providers that we randomly selected for review.

                                      Table 1: Primary Classification

                          Provider                                   Description
                  Provider 1                        Clinic/center
                  Provider 2                        Clinic/center
                  Provider 3                        Internal medicine
                  Provider 4                        Ophthalmology
                  Provider 5                        Emergency medicine
                  Provider 6                        Internal medicine
                  Provider 7                        Federally qualified health center
                  Provider 8                        Radiology




2
    42 CFR § 433.316.
3
  Billing Guide, pp. 7-9. In its Medicaid Bulletins to providers, the State has clarified that hospitals and nursing
facilities are required to submit a quarterly report even if no Medicaid credit balance exists. However,
noninstitutional providers are required to submit a quarterly report only when they identify outstanding Medicaid
credit balances. See, e.g., North Carolina Medicaid Bulletin, September 2010, p. 11.



                                                           2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether noninstitutional providers reconciled invoice records
with credit balances and reported the associated Medicaid overpayments to the State agency.

Scope

Our audit period covered 13,244 invoice records with unresolved credit balances 4 as of the most
recent quarter ended for each of the 8 noninstitutional providers in our sample. The most recent
quarter ended for three providers was June 30, 2011, and the most recent quarter ended for the
remaining five providers was September 30, 2011. The unresolved credit balances totaled
$1,261,942. The 8 sampling frames included 7,931 invoice records with unresolved credit
balances 5 totaling $920,623.

We did not review the overall internal control structure of the State agency or the
noninstitutional providers that we sampled. We limited our review of the State agency’s internal
controls to determining the capabilities of the Medicaid claims processing system in preventing
overpayments and determining whether there were backlogs in processing provider adjustments
and refunds. We limited our internal control review at the eight sampled providers to obtaining
an understanding of the policies and procedures that the noninstitutional providers used to review
credit balances and report overpayments to the State agency.

From September 2011 through April 2012, we conducted fieldwork at the State agency’s offices
in Raleigh, North Carolina, and the eight noninstitutional providers at various locations
throughout North Carolina.

Methodology

To accomplish our objectives, we:

       •   reviewed applicable Federal laws and regulations and State agency policy guidelines
           pertaining to Medicaid overpayments;

       •   interviewed State agency personnel responsible for monitoring Medicaid overpayments;

       •   created a sampling frame for the first stage of our sample design consisting of 282
           noninstitutional providers, from which we randomly selected 8 providers using the
           probability-proportional-to-size methodology (Appendix A);

       •   reviewed the providers’ policies and procedures for reviewing credit balances and
           reporting overpayments to the State agency;

4
    The invoice records with these credit balances also contained Medicaid payments.
5
    Each credit balance in our sampling frame was unresolved for at least 60 days and greater than $3.


                                                            3
   •   determined the providers’ total number and associated dollar amount of all invoices with
       credit balances and reconciled to the providers’ accounting records to identify total credit
       balances with Medicaid payments;

   •   created a sampling frame for each of the eight selected providers for the second stage of
       our sample design;

   •   selected a random sample of 30 invoice records for each of the 5 providers that had more
       than 30 invoice records and reviewed all invoice records from each of the 3 providers that
       did not have more than 30 invoice records (Appendix A);

   •   reviewed patient payment data, remittance advices, details of patient accounts receivable,
       and additional supporting documentation for each of the selected invoice records to
       determine overpayments that should be reported to the State agency;

   •   estimated Statewide unrecovered Medicaid overpayments associated with unresolved
       credit balances that should be reported to the State agency;

   •   determined whether the provider had taken action, subsequent to our audit period, to
       report to the State agency the Medicaid overpayments identified in our sample; and

   •   discussed our audit results with the eight providers in our sample.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Generally, the eight noninstitutional providers that we sampled did not reconcile invoice records
with credit balances and report the associated Medicaid overpayments to the State agency. Of
the 185 invoice records with both Medicaid payments and credit balances in our sample, 112
contained Medicaid overpayments, but 73 did not. The Medicaid overpayments associated with
these 112 invoice records totaled $10,097 ($7,098 Federal share). Based on these results, we
estimated that the State agency could realize an additional Statewide recovery of $1,258,900
($902,461 Federal share) from our audit period and obtain future savings if it enhanced its efforts
to recover overpayments in provider accounts.

The providers did not identify and report Medicaid overpayments because the State agency did
not require providers to exercise reasonable diligence in reconciling invoice records with credit
balances to determine whether overpayments existed. The reconciliation process was at the
discretion of the providers, and some providers did not reconcile invoice records for more than




                                                 4
6 years. 6 Some noninstitutional providers stated that they were unaware of the State agency’s
requirement for the quarterly reporting of all identified Medicaid overpayments recorded as
credit balances in the providers’ accounting systems.

INVOICE RECORDS WITH UNRESOLVED CREDIT BALANCES

As of the end of the most recent quarter, the accounting records for the 8 noninstitutional
providers contained 13,244 invoice records with unresolved credit balances totaling $1,261,942.
Although Medicaid had reimbursed the providers for some portion of these invoice records, the
providers had not reconciled, or otherwise evaluated, the invoice records to determine whether
the unresolved credit balances contained Medicaid overpayments that should have been returned
to the State agency.

Of the 13,244 invoice records with unresolved credit balances, 10,111 invoice records totaling
$924,578, or 76 percent, had credit balances that were at least 60 days old, and some were
unresolved for more than 6 years, as shown in Table 2.

                    Table 2: Invoice Records With Unresolved Credit Balances

                                                 Number of                           Unresolved
     Time Unresolved                           Invoice Records                     Credit Balances
     60–365 days                                  5,479                             $685,049
     1–2 years                                    2,524                              171,679
     2–3 years                                    1,050                               43,628
     3–4 years                                      555                               17,220
     4–5 years                                      343                                5,311
     5–6 years                                      154                                1,665
     More than 6 years                                 6                                   26
       Total                                     10,111                             $924,578

The providers did not reconcile these invoice records with unresolved credit balances because
there was no requirement for them to do so.

MEDICAID OVERPAYMENTS NOT REPORTED

The State agency’s Billing Guide states that providers are required to submit a quarterly report
showing all identified Medicaid overpayments recorded as credit balances in the providers’
accounting systems as of the last day of each calendar quarter. The report requires specific
information for each credit balance on a claim-by-claim basis, and the State agency uses the
report to monitor and recover credit balances due to Medicaid.



6
  A Federal requirement that providers must report and repay overpayments within a certain time period was added
to section 1128J of the Social Security Act by section 6402(a) of the Patient Protection and Affordable Care Act,
P.L. No. 111-148. CMS will issue Medicaid regulations in the future to establish Federal policies and procedures to
implement the law.


                                                         5
Under Federal regulations, a State must refund the Federal share of an overpayment to CMS
within a specified period after it is discovered. The overpayment would be discovered when the
provider acknowledges the overpayment amount on the quarterly report that it submits to the
State. The State would refund the Federal share on the quarterly CMS-64 report to CMS.

The State agency’s quarterly report is similar to the report that Medicare providers are required
to submit under §§ 1815(a), 1833(e), 1866(a)(1)(C), and related provisions of the Act. 7 Both the
State agency’s quarterly report and Medicare’s report notify the appropriate officials that the
provider has determined that a credit is due to the applicable Federal program for an
overpayment.

Among the noninstitutional providers in our sample, the practices for reconciling credit balances
and identifying and reporting overpayments varied widely, and some of the providers did not
report Medicaid overpayments to the State agency. Seven of the eight providers did not
routinely submit the required quarterly report, although some providers had submitted a report
subsequent to our audit period.

Of the 185 invoice records with both Medicaid payments and credit balances in our sample, 112
contained overpayments totaling $10,097 ($7,098 Federal share). The eight noninstitutional
providers acknowledged that the overpayments occurred, and we verified that the providers had
refunded $4,975 ($3,477 Federal share) of the overpayments to the State agency subsequent to
our audit period.

The overpayments occurred because the noninstitutional providers received duplicate payments
and third-party payments, as well as making various billing and accounting errors. Duplicate
payments were typically caused by the noninstitutional providers erroneously generating
multiple billings or by Medicaid paying more than once for the same services. Third-party
payments resulted from noninstitutional providers receiving payment from a third-party insurer,
such as a commercial insurer or Medicare, for a service paid for by Medicaid. Billing and
accounting errors included overstated billings, the use of incorrect identifiers for the type of
services provided, and posting errors.

INEFFECTIVE POLICIES AND PROCEDURES

The providers did not identify and report Medicaid overpayments because the State agency did
not require providers to exercise reasonable diligence in reconciling invoice records with credit
balances to identify and return overpayments that were due the State agency. The reconciliation
process was at the discretion of the providers, and some providers did not reconcile their invoice
records for more than 6 years. In addition, some provider officials stated that they were unaware
of the State agency’s requirement for the quarterly reporting of all identified Medicaid
overpayments recorded as credit balances in the providers’ accounting systems.




7
    See Form CMS-838, Medicare Credit Balance Report.


                                                        6
MEDICAID OVERPAYMENTS AND ESTIMATED PROGRAM RECOVERIES

Of the 185 invoice records with both Medicaid payments and credit balances in our sample, 112
contained overpayments totaling $10,097 ($7,098 Federal share) paid to 8 noninstitutional
providers. The State agency should refund the Federal share of those overpayments to CMS.
(See Appendix B for details of our sample results.)

We estimated that the State agency could realize an additional Statewide recovery of $1,258,900
($902,461 Federal share) from our audit period and obtain future savings by requiring providers
to exercise reasonable diligence in reconciling invoice records with credit balances and reporting
the associated Medicaid overpayments. (See Appendix B for details of our Statewide estimate.)

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $10,097 ($7,098 Federal share) to the Federal Government for overpayments paid
       to the selected noninstitutional providers and

   •   enhance its efforts to recover additional overpayments estimated at $1,258,900 ($902,461
       Federal share) from our audit period and realize future savings by requiring providers to
       exercise reasonable diligence in reconciling invoice records with credit balances and
       reporting the associated Medicaid overpayments.

STATE AGENCY COMMENTS

The State agency concurred with our findings and recommendations and summarized the
corrective actions that it is planning. The State agency’s comments are included in their entirety
as Appendix C.




                                                7
APPENDIXES
                                                                                      Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of certain noninstitutional providers in North Carolina that received a
Medicaid payment during the quarter ended March 31, 2011, with the exception of one provider
that we had previously reviewed (report number A-04-10-04007). These noninstitutional
providers were either multispecialty physician groups or multispecialty physician and medical
diagnostic clinics. A multispecialty group is identified in North Carolina’s Medicaid
Management Information System (MMIS) as provider type 022 and specialty code 070.
Multispecialty physician and medical diagnostic clinics are identified as provider type 052 and
specialty code 070.

SAMPLING FRAME

From North Carolina’s MMIS, we created a database of all payments made to noninstitutional
providers during the quarter ended March 31, 2011. The database consisted of 988,875 claims
with Medicaid payments totaling $74,553,816, representing 1,280 noninstitutional providers.
We then eliminated all providers with less than 500 Medicaid claims, providers that received less
than $10,000 in Medicaid payments, out-of-State providers, and providers affiliated with our
previous audit mentioned above. The resulting sampling frame of 842,382 claims and Medicaid
payments totaling $62,615,865 represented 282 noninstitutional providers.

SAMPLE UNIT

The primary sample unit was a noninstitutional provider. The secondary sample unit was an
invoice record with a Medicaid payment and a credit balance greater than $3 in a provider’s
account that was at least 60 days old as of the date of the most recently ended quarter.

SAMPLE DESIGN

We used a multistage sample design based on probability-proportional-to-size weighted by the
total number of Medicaid claims submitted by each provider for the quarter ended March 31,
2011. The first stage consisted of a random selection of providers with probability of selection
proportional to the total number of Medicaid claims. The second stage consisted of a simple
random sample at each of the selected providers where the provider had more than 30 invoice
records with Medicaid payments and credit balances. If the provider did not have more than 30
invoice records with Medicaid payments and credit balances, we selected all of that provider’s
invoice records with Medicaid payments and credit balances for review.
                                                                                      Page 2 of 2


SAMPLE SIZE

We selected eight noninstitutional providers as the primary units. For the secondary units, we
selected a random sample of 30 invoice records with Medicaid payments and credit balances
from 5 providers and all invoice records with Medicaid payments and credit balances from the
remaining 3 providers, for a total of 185 invoice records in the amount of $30,857.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

The sample selection used probability-proportional-to-size through which we considered the
relative sizes of the noninstitutional providers when selecting the primary sampling units. For
the secondary units, we consecutively numbered the invoice records with Medicaid payments
and credit balances in the sampling frame for each provider. After generating the random
numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of Medicaid overpayments.
                         APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                         SAMPLE RESULTS OF MEDICAID OVERPAYMENTS


                                                     Amount of    Federal Share
                                                       Actual          of
                                 Provider           Overpayments Overpayments
                              Provider 1                   $1,176           $873
                              Provider 2                    5,485          3,765
                              Provider 3                    1,022            744
                              Provider 4                      878            621
                              Provider 5                      933            684
                              Provider 6                       49             37
                              Provider 7                      516            347
                              Provider 8                       38             27
                                   Total                  $10,097         $7,098

                         STATEWIDE ESTIMATE OF POTENTIAL SAVINGS 1


  Frame          Value of                                                                          Value of
   Size            Frame                                      Number                             Overpayments
  for the          for the                                       of                 Value of      in Sample
 Selected         Selected       Sample       Value of      Overpayments          Overpayments     (Federal
Providers        Providers        Size        Sample         in Sample             in Sample        Share)

  7,931           $920,623          185        $30,857             112                $10,097       $7,098


                                     Estimated Value of Overpayments
                           (Limits Calculated for a 90-Percent Confidence Interval)

                                 Point estimate                             $1,268,997
                                 Lower limit                                   436,594
                                 Upper limit                                 2,101,401

                             Estimated Value of Overpayments (Federal Share)
                           (Limits Calculated for a 90-Percent Confidence Interval)

                                 Point estimate                               $909,559
                                 Lower limit                                   312,810
                                 Upper limit                                 1,506,309

  1
      The estimated value of overpayments includes the value of overpayments in the sample.
                                                                                                                           Page I oD


                    APPENDIX C: STATE AGENCY COMMENTS 





                      North CatoUna Department of Health and Human Services 

                         2001 M~i l Servia Unt(:• • Rakigh. Nonb Carolina 27699·2001 

                                     Td 919-855-4800 ' F:u. 919-7 15-4645 

~y   Eaves Perdue, G~mor                                                                          Alber! A. Ddia, Acting $eo,:no,{ary 


                                                    October 10. 2012


     Lori S. Pilcher, RegionallnsptlClOr
     General for Audit Services
     Office of Audit Services, Region IV
     61 Forsyth Street, SW, Suite 3141
     Atlanta, GA 30303

     Re: Report Number: A-04-11-04016

     Dear Ms. Pilcher:

     We have reviewed your draft report entitled Noninstitutional Providers in North Carolina Did
     Not Reconcile Invoice Records With Credit Balances and Report the Associated Medicaid
     Overpayments to the Slate Agency. TIle following represents our response and corrective action
     ptan to the Audit Findings and Recommendations.

                                           SUMMARY OF FINDINGS

     Generally. the eight noninstitutional providers thai we sampled did nol reconcile invoice records
     with credit balances and report the associated Medicaid overpayments to the State agency. Of the
     185 invoice records with both Medicaid payments und credit balances in our sample, 11 2
     contained Medicaid overpayments, but 73 did not. The Medicaid overpayments associated with
     these 11 2 invoice records totaled $ 10.097 (57,098 Federal share). Based on these res\lits. we
     estimated that the State agency could realize an additional Statewide recovery of 5 1.258,900
     ($902,46 1 Federal share) from our audit period and obtain future savings if it cnhanced its efforts
     to recover overpayments in provider accounts.

     The providers did not identifY and reJXlrt Medicaid overpayments because thc State agency did
     nol require providers to exercise reasonable diligence in reconciling invoice records with credit
     balances to detennine whether overpayments existed. The reconciliation process was at the
     discretion oflhe providers, and some providers did not reconci le invoice records for more than 6
     years. Some non-institutional providers stated thai they were unaware of the State agency's
     requirement for the quarterly reporting of all identified Medicaid overpayments recorded as credit
     balances in the providers' accounting systems.




                           Localion:   lOt BLtir I>rin ' Adams Building ' Raleigh, N.C. 2760) 

                                       An Equal OpponlUll\1' Allirmatin Action Employer 

                                                                                                  Page 2 oD



Lori s. PillOlter
<k1ober8.20 12
Page 2 00

                                      RECOM MENDATIONS

The recommendations were for the North Carolina Dcpartmcnl of Health and Human Services to:

         • 	 refund $10.097 ($7,098 Federol share) to the Fedeml Government for overpayments
             paid to the selected non·inslitutional providers and
         • 	 enhance its cffons to recover additionaJ overpayments estimated at $1,258,900
             ($902.46 1 Federal share) from OUf audit period and realize future savings by requiring
             providers to exercise reasonable diligence in reconciling invoice records with credit
             balances and reporting the associated Medicaid overpayments.


D1JHS Respomie: The DepartmenJ concurs with the findings and recommendations and will
refund the Federal share 0/$7,098 by December 31,2012. The Department also concurs with
lhe summary of finding., which addresses the need to enhance efforts to recover additional
Ol'erpaymems and realize future savings by imposing specific requirements on providers
regarding Ihe reconciliation of invoice records with credit balances and appropriately report
associated overpayments. In thi.s regard, the Department is planning the corrective actions
below.

NC DHHS Corrective Actions

To lessen the ftl /ure likelihood of providers neglecting 10 properly report credit balance
overpayments, the Program Integrity $ection of the Division of Medical Assistance (DMA) is
enhancing communication to all providers via the monthly DMA Medicaid Bulletin. The arlicle.
published quarterly, will reinforce the requirement that providers identify credit balance
overpayments and submit quarterly reports that rejlectthe overpayment and the metlwdology as
well (IS timeframes used to refond Medicaid. The Department will also develop l.lIiforceable rules
making this requirement the responsibility ofall Medicoid providers.

&rUer this year, DMA began discussions with its third party contractor regarding Ihe feasibility
of the contractor assuming responsibility for the Credit Balance Reporting Process; which is
currently a manual process performed by Program Integrity Third Party Liability (IPL) staff.
The benefit to this transition ofresponsibility would be the alltomation ofthe process, resulting
in the ability to beller track refonds and adjustments made by providers as well as tracking
which prOViders neglect 10 submil Quarterly Credit Balance Reports over a period oflime. DMA
will continue with these discussions and will amend Ihe existing contract if an agreement is
reached. 1/ no agreement is reached, consideration will be given to developing a Request For
Proposal (RFP).

The Department is committed to improving Ihe Department's Medicaid program and continues to
take steps to make Medicaid more efficient and effective in meeting the needs of qualified
individuals within the state. The Department will address Ihe issues contained in this report and
continue to move forward with changes to Identify and correct problems in this program.




                              An Equal Opportunity I Affirmative Action Empklyer
                                                                                            Page 3 of3



Lori S. Pilcller 

October S, 20 12 

Page 3 of3 



We also greatly appreciate the professionalism of the OIG audit staff, lhe objective manner in
which they conducted the audil fieldwork orul/he fiscally sound recommendations in the report.

(fyou need any additional information, please contact Monica Hughes at (9 19) 855-3720.




~#~7
Albert A. Delia

AAD:mh

cc: 	 Dan Stewart. Assistant Secretary for Finance and Business Operations 

     Michael Watson, Director, Division of Medical Assistance 

     Lakctha Miller, Controller, Office orthe Controller 

     Eddie Berryman. Director, Office oflntemal Audit 

     Tara Larson, Chief Clinical Operations Officer 

     Debbie Pinard, Acting Assistant Director 

     Patricia O. Allen, I'rogram Integrity Business Opemtions Manager 





                            An Equal Opportunity I Aifuma!ive Action Employer
